HHS/OIG-Audit-"Fund Balances and Collections Reported for the Title IV-A Temporary Assistance for Needy Families (TANF) Program by Wyoming Department of Family Services,"(A-08-01-01047)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Fund Balances and Collections Reported for the Title IV-A Temporary
Assistance for Needy Families (TANF) Program by Wyoming Department of Family
Services," (A-08-01-01047)
February 6, 2002
Complete
Text of Report is available in PDF format (664 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This
final report provides you with the results of our audit entitled Fund
Balances and Collections Reported for the Title IV-A Temporary Assistance
for Needy Families (TANF) program by the Wyoming Department of Family Services;
Cheyenne, Wyoming.  The Department of Family Services was designated
as the single State agency responsible for program administration (State
agency).  Our objective was to determine whether TANF grant awards of
$82,230,508 for the period January 1, 1997 through December 31, 2000, were
expended or obligated in accordance with applicable laws and regulations.   We
found that expenditures totaling $72,130 did not meet rules applicable to
use of reserve funds. We are recommending the State restore these funds to
their TANF account.